OIG Audit Report GR-60-07-010

Audit Report Office of Community Oriented Policing Services Grant to the Village of Maxwell, New Mexico

Audit Report GR-60-07-010


August 2007
Office of the Inspector General


Executive Summary


 The Office of the Inspector General, Audit Division, has completed an audit of the Universal Hiring Program (UHP) grant awarded by the Office of Community Oriented Policing Services (COPS) to the Village of Maxwell (Village), New Mexico. The purpose of the grant was to establish a law enforcement agency in the Village. The Village was awarded $224,785 to hire 2 full-time and 1 part-time police officers. 
 We found the Village to be in material non-compliance with COPS’ grant requirements. We reviewed the Village’s compliance with five essential grant conditions and except for budgeting for local officers, we found weaknesses in each of the areas we tested: local match requirements, reimbursement requests, community policing activities, and retention of officer positions. As a result of the deficiencies identified below, we question $160,366 in grant funds received.1 

  The Village was unable to provide supporting documentation for withdrawals totaling $49,964 from the police department bank account in which COPS grant funds were deposited, including one debit memo for $27,635, and other checks. 
 The Village charged unallowable costs totaling $21,897 to the grant for equipment, uniforms, utilities, supplies, gas, fees, and child support. 
 The Village could not provide documentation to support that its 10 percent match requirement had been met. As a result, we questioned $16,037 or 10 percent of the total amount drawn down. 
 The Village claimed excess salary costs totaling $10,264 for four officers. 
 The Village did not retain the grant funded officer positions for at least one full budget cycle. As a result, we questioned $160,366 in grant funds received.  

 These items are discussed in detail in the Findings and Recommendations section of the report. Our audit objectives, scope and methodology appear in Appendix I. 



Footnotes

The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use. However, not all findings are dollar-related. See Appendix III for a breakdown of our dollar-related findings and for the definition of questioned costs.








Return to OIG Home Page